  AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE 

GRANTS AWARDED TO PHILADELPHIA SAFETY NET 

       PHILADELPHIA, PENNSYLVANIA


          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 


         Audit Report GR-70-14-001 

                January 2014 

    AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE GRANTS

      AWARDED TO PHILADELPHIA SAFETY NET

          PHILADELPHIA, PENNSYLVANIA


                             EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Justice Programs (OJP)
Edward Byrne Memorial Justice Assistance Grants, numbers
2009-D1-BX-0272 and 2010-DD-BX-0471, awarded to Philadelphia Safety
Net (PSN) of Philadelphia, Pennsylvania totaling $800,000. 1

      Funding from these grants supported PSN’s “Goods for Guns” initiative
that entailed exchanging guns turned in by the public for grocery store gift
cards. In addition, funding from one of these grants was used to provide
safety workshops for seniors. Between July 2010 and March 2012, PSN
financially supported seven “Goods for Guns” events in locations around
Philadelphia, Pennsylvania. At each of these events, the Philadelphia Police
Department collected guns while the PSN Executive Director or grocery store
representatives distributed $100 gift cards.

      As a result of this audit, we determined that PSN used $479,183,
approximately 62 percent of $771,137 in grant funding received from OJP,
for expenses we identified as (1) unallowable, (2) unsupported, and/or
(3) unreasonable. 2 Included in this amount are expenses related to the
Executive Director’s compensation ($346,394), rent and utilities ($43,697),
accountable property (gift cards totaling $36,300), and consultant
expenditures ($52,792).

     In addition, we identified that prior to the start of this audit, PSN’s
Executive Director had used the grant funding from sources not related to




       1
          During this audit, we identified certain issues requiring further investigation. We
made a referral to the OIG’s Investigations Division, and put our audit on hold pending
resolution of the referral. Subsequently, we were able to complete our audit and issue this
report.
       2
        Appendix II of this audit report provides a detailed listing of the questioned costs
summarized here.
these grants for his personal expenditures. 3 Although the Executive Director
made repayments to PSN in 2010, he never reimbursed PSN for $3,389 that
included personal items such as a parking ticket, a hotel stay, gasoline
purchases, clothing, restaurant meals, and cash withdrawals.

       With regard to the PSN’s personnel costs, we determined that PSN’s
Executive Director, the organization’s sole employee, performed his daily
activities in relative isolation without any oversight by the Board of
Directors. His sister served as chairperson of the Board, which we concluded
created a potential conflict of interest. We also found that the Executive
Director paid himself more than the PSN Board of Directors authorized by
directing a third party payroll provider to issue him paychecks in the amount
and frequency he determined.

      In addition, PSN used grant funding totaling $29,750 to pay the rent
on a building that was only used once a month on average and did not
maintain documentation to adequately support utility expenses of $13,947.

      We also found that PSN could not account for all the gift cards that
were purchased and donated for the “Goods for Guns” program.
Specifically, we determined that PSN purchased or was given 3,234 gift
cards but only collected 2,871 guns. Of the remaining 363 gift cards that
were not traded for guns through the program, 83 were still within PSN’s
inventory at the conclusion of the grant program and PSN could not account
for 280 gift cards. As a result, we identified $36,300 of unallowable and
unsupported grant expenditures.

      Finally, we identified concerns with regard to PSN’s accounting
consultant. Specifically, we determined that PSN did not select its
accounting consultant using competitive bidding as required by the OJP
Financial Guide. We also found that this consultant provided assurances to
OJP regarding the capability of PSN’s accounting system to effectively
control grant funds and, we believe, the assurances made by the consultant
were misleading because the accounting system described to OJP was not
PSN’s but instead PSN’s accounting consultant’s. Therefore, the accounting
system the consultant certified was its own, not PSN’s, and certification did
not come from an independent source as required.




       3
          U.S. Department of Justice Office of the Inspector General, Audit of the Office of
Justice Programs Bureau of Justice Assistance Grants Awarded to the Father’s Day Rally
Committee, Philadelphia, Pennsylvania, Audit Report GR-70-14-002 issued January 2014.




                                             - ii ­
     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.

      We discussed the results of our audit with PSN officials and have
included their comments in the report, as applicable. In addition, we
provided a copy of our draft report to PSN and OJP for comment. These
responses are appended to this report as Appendix III and IV, respectively.
Our analysis of both responses, as well as a summary of actions necessary
to close the recommendations can be found in Appendix V of this report.




                                    - iii ­
                                 TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1


Background ................................................................................ 2

Our Audit Approach ..................................................................... 3


FINDINGS AND RECOMMENDATIONS........................................ 4

Overview .................................................................................... 4

Internal Control Environment ........................................................ 5

Grant Expenditures ...................................................................... 9

Accountable Property .................................................................17

Drawdowns................................................................................20

Budget Management and Control..................................................21

Reporting ..................................................................................22

Program Performance and Accomplishments ..................................25

Conclusions ...............................................................................27

Recommendations ......................................................................27


APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ..........29


APPENDIX II - SCHEDULE OF DOLLAR- RELATED FINDINGS....31


APPENDIX III – PHILADELPHIA SAFETY NET RESPONSE

  TO THE DRAFT AUDIT REPORT.............................................32


APPENDIX IV - OFFICE OF JUSTICE PROGRAMS RESPONSE

  TO THE DRAFT AUDIT REPORT.............................................37


APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL
  ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
  CLOSE THE REPORT .............................................................41

                                  INTRODUCTION

      The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of the Office of Justice Programs (OJP)
Edward Byrne Memorial Justice Assistance Grants (JAG), numbers
2009-D1-BX-0272 and 2010-DD-BX-0471, awarded to Philadelphia Safety
Net (PSN), Philadelphia, Pennsylvania. 4 In total, $800,000 was awarded to
PSN through these grants.

                OJP Grants to Philadelphia Safety Net
                        AWARD        AWARD
      GRANT AWARD                                AWARD AMOUNT
                      START DATE    END DATE 5
   2009-D1-BX-0272            09/01/2009        12/31/2011          $   500,000
   2010-DD-BX-0471            10/01/2010         3/30/2012              300,000
                           TOTAL:                                   $   800,000
Source: OJP

       OJP works to provide innovative leadership to federal, state, local, and
tribal justice systems, by disseminating state-of-the art knowledge and
practices across America, and providing grants for the implementation of
these crime fighting strategies. OJP works in partnership with the justice
community to identify the most pressing crime-related challenges
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges. The Edward Byrne Memorial Discretionary Grants Program is
intended to help local communities improve the capacity of local justice
systems and provides for national support efforts.

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed PSN’s program performance in
meeting the grants’ objectives and overall accomplishments. The objective
of our audit was to review performance in the following areas: (1) internal
control environment, (2) grant expenditures, (3) accountable property,

       4
          During this audit, we identified certain issues requiring further investigation. We
referred those matters to the OIG’s Investigations Division, and put our audit on hold
pending such investigation. Subsequently, we were able to complete our audit and issue
this report.
       5
          OJP approved PSN’s requests to extend the grant period, without additional funding,
for both grants.




                                             -1­
(4) drawdowns, (5) budget management and control, (6) reporting, and
(7) program performance and accomplishments. We determined that
program income, matching costs, indirect costs, and monitoring of
contractors and subgrantees were not applicable to these grants.

Background

      The mission of Philadelphia Safety Net is to provide hand-gun safety
education information to urban communities through collaborative initiatives
to reduce the number of available guns through city-wide gun turn-ins
conducted under the supervision of the Philadelphia Police Department.
According to its internet website, PSN’s focus is safety prevention to help
provide a safer environment for children and seniors by removing hand guns
that may pose a threat to the lives of Philadelphians. PSN collaborates with
the City of Philadelphia’s Police Department, Probation Department, and
School District on the following programs: (1) goods/groceries for gun
program, (2) gun safety tips and education, (3) informational outreach to
populations most at-risk for gun-violence, and (4) an educational curriculum
focused towards school children.

       PSN was established in 2008 by its Executive Director who is also its
sole employee. Prior to being awarded the OJP grants that are the subject
of this audit report, PSN received funding from two additional sources:
(1) the Commonwealth of Pennsylvania’s Commission on Crime and
Delinquency (Pennsylvania) provided two grants and (2) the Father’s Day
Rally Committee (FDRC) provided a subaward from an OJP grant. 6 The
following table presents the grant funding PSN received from these sources.

                         Previous PSN Funding Sources
                                                                        Amount
               Funding Source                    Project Period
                                                                        Received
    Pennsylvania Commission on Crime            March 2008­
                                                                           $250,000
    and Delinquency - Grant 1                   February 2009

    Pennsylvania Commission on Crime            March 2009­
                                                                            115,000
    and Delinquency - Grant 2                   March 2010
                                                July 2008 ­
    Father's Day Rally Committee                                            186,894
                                                December 2010
    Total                                                                  $551,894
      Source: PSN

      6
         The funding PSN received from the Father’s Day Rally Committee as a subgrantee
was provided through OJP grant 2008-DD-BX-0575.




                                          -2­
Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audited against are contained in the Office of Justice Program’s Financial
Guide and the award documents.

     In conducting our audit, we performed testing of PSN’s:

     •	 Internal control environment to determine whether the financial
        accounting system and related internal controls were adequate to
        safeguard grant funds and ensure compliance with the terms and
        conditions of the grants.

     •	 Grant expenditures to determine whether costs charged to the
        grants were allowable and supported.

     •	 Accountable property to determine whether PSN had effective
        procedures for managing and safeguarding assets acquired with
        grant funding.

     •	 Drawdowns (requests for grant funding) to determine if PSN
        adequately supported its requests for funding and managed its
        grant receipts in accordance with federal requirements.

     •	 Budget management and control to determine the overall
        acceptability of budgeted costs by identifying any budget deviations
        between the amounts authorized in the budget and the actual costs
        incurred.

     •	 Reporting to determine if the required periodic Federal Financial
        Reports and Progress Reports were submitted on time and
        accurately reflected grant activity.

     •	 Program performance and accomplishments to determine
        whether PSN achieved the grants’ objectives and to assess
        performance and grant accomplishments.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                    -3­
                  FINDINGS AND RECOMMENDATIONS

           COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

       In performing our audit, we determined that PSN:
       (1) paid excessive compensation to the Executive Director and a
       portion was unauthorized; (2) charged unsupported utility
       expenditures to the grant; (3) failed to use competitive bidding
       for consultants; (4) did not properly safeguard grant-funded
       property; (5) had excess cash on hand; (6) provided late final
       Federal Financial Reports; and (7) did not meet the primary
       goals relating to the number of gun buy-back events held and
       the number of guns collected using budgeted grant funds. We
       also identified internal control deficiencies that contributed to
       these audit findings.

Overview

     In performing this audit, we examined PSN’s grant applications,
accounting records, financial and progress reports, and operating policies
and procedures and determined that 62 percent of the OJP grant funding
PSN received, or $479,183, was used for purposes that were unallowable,
unsupported, or unreasonable. 7

      Specifically, we question $346,394 of the PSN’s Executive Director’s
compensation as unreasonable, unsupported, and partially unallowable. We
also question the reasonableness and supportability of rent and utilities paid
on two PSN offices totaling $43,697, and payments of $52,792 to a
consultant that was not selected using a required competitive bidding
process. In addition, PSN did not use 83 $100 gift cards totaling $8,300 for
grant purposes and was unable to account for 280 $100 gift cards, totaling
$28,000, purchased or donated as part of its “Goods for Guns” gun buy-back
events. We also determined that the internal control environment at PSN
was flawed. Of particular concern to us, PSN’s Board of Directors failed to
provide any real oversight of PSN’s Executive Director who is PSN’s sole
employee.




       7
        Appendix II of this audit report provides a detailed listing of the questioned costs
summarized here.




                                             -4­
Internal Control Environment

       We determined PSN lacked effective policies and procedures to
safeguard grant funding and acted without oversight or governance provided
by its Board of Directors.

Board of Directors

       An active Board of Directors that provides oversight for an
organization in general and the Executive Director in particular is a key
element in the internal control environment for nonprofit grantees.
According to the Commonwealth of Pennsylvania, Office of the Attorney
General, nonprofit board members have a duty of care that requires them to
make reasonable inquiries when analyzing contracts, investments, business
dealings, and other matters concerning the organization. 8 Moreover, an
individual who is acting in conformance with this standard will (1) diligently
read, review, and inquire about the material that affects the organization
and (2) keep abreast of the organization’s affairs and finances.

      We met with PSN’s five Board Members and determined that none had
more than a cursory understanding of the operation of the organization, its
funding sources and budgets, the Executive Director’s daily activities, the
financial condition of the organization, or the status of any audits of the
organization.

      Although the minutes of PSN’s first board meeting in 2008 indicated
the members authorized an annual salary of $90,000 for the Executive
Director, we found no evidence that the members ever revisited this issue
through 2012 or evaluated the Executive Director’s performance. We
believe this lapse in oversight is significant as the Executive Director’s actual
compensation in 2010 and 2011 was $56,378 and $24,859 more than his
board approved salary in those years respectively. In the Expenditures
section of this report we provide a detailed analysis of the issues related to
the Executive Director’s compensation.

      In addition to their duty of care, board members have a duty of loyalty
that requires them to perform their duties in good faith with the best
interests of the organization in mind. Specifically, board members have a
duty to avoid potential or apparent conflicts of interest. However, because a
Board member who served as Chairperson was also the sister of the

       8
           Handbook for Charitable Nonprofit Organizations, Commonwealth of Pennsylvania,
Office of the Attorney General.




                                           -5­
Executive Director, we concluded this created a potential conflict of interest.
Although we did not identify any misconduct on the part of the board
member, we believe her relationship to the Executive Director and her
prominent position on the board compromised her ability to provide effective
oversight of the organization and the Executive Director.

Accounting Function

      At the time PSN was awarded its first grant directly from OJP in
September 2009, OJP required that the organization complete an accounting
system and financial capability questionnaire. The questionnaire informs the
grantee that its financial responsibility must be such that the grantee can
properly discharge the public trust which accompanies the authority to
expend public funds. Specifically, the accounting system should be
integrated with an adequate system of internal controls to safeguard the
funds and assets covered, check the accuracy and reliability of accounting
data, promote operational efficiency, and encourage adherence to prescribed
management policies.

      According to the responses provided in the questionnaire, to which the
Executive Director attested, PSN’s accounting system met the standards
established in the OJP Financial Guide. However, because PSN had not yet
had an independent review of its financial statements, the questionnaire
completed by PSN was required to be certified by an independent Certified
Public Accountant (CPA). 9 The purpose of the CPA certification is to provide
assurance to OJP that the grantee can establish fiscal controls and
accounting procedures to ensure grant funding is disbursed and accounted
for properly.

      Although a CPA certified PSN’s questionnaire, the certifying CPA was
not independent, as it was PSN’s accounting consultant. We also determined
that the accounting system described in the questionnaire was not PSN’s but
instead the accounting consultant’s. Therefore, the accounting system the
CPA was certifying was its own, not PSN’s.

Control Activities

      In conducting this audit, we evaluated PSN’s internal controls we
consider to be significant within the context of our audit objective. Included

       9
         We identified and reviewed only one PSN financial statement audit report prepared
by an independent CPA. This audit covered the years ending December 31, 2008, and 2009
and contained no audit findings or recommendations. The Executive Director told us in July
2012 that he was not sure if PSN had financial statement audits for years 2010 or 2011.




                                           -6­
in this examination were the controls related to cash, specifically, periodic
bank reconciliations to identify unauthorized or improper uses of cash.

      We determined that PSN’s accounting consultant completed bank
reconciliations for PSN. However, despite the reconciliations being
performed, the Executive Director overrode this control for 2 years and had
improperly used PSN’s bank card repeatedly during that time. We reviewed
PSN’s banking records and determined that between July 2008 and
September 2010, the Executive Director used the bank card for his own
personal needs including retail purchases and cash withdrawals. We
determined the funding related to these purchases and withdrawals was
associated with the OJP subgrant PSN received from the FDRC and the
Pennsylvania state grants.

       Prior to the start of our audit, the Executive Director reimbursed PSN
for his personal use of the organization’s funding in 2010. However, the
Executive Director never reimbursed PSN for $2,218 in personal
expenditures that occurred in 2009 that were paid for with FDRC subgrant
funding. We determined the Executive Director spent the organization’s
grant funding on expenditures including a parking ticket for his car ($393); a
hotel stay ($286), gasoline purchases ($248), parking and food expenses
($142) and cash withdrawals for ($1,149) – all of which were made for his
personal activities unrelated to PSN business. In addition, FDRC grant
funding was used to pay bank overdraft fees that resulted from these
transactions. These expenses related to the PSN’s Executive Director’s
personal use of grant funding totaled $2,790 and were classified as
“nonemployee compensation” in the IRS Form 1099 Miscellaneous Income
Statement that the accounting consultant prepared for the Executive
Director. We also determined the Executive Director did not reimburse PSN
for personal expenditures made with Pennsylvania state grant funding
occurring in 2008 and included charges for clothing and restaurants
unrelated to PSN business totaling $1,171. Because PSN did not receive any
OJP grants directly or through subgrants until 2009, we have not included
these expenditures in our calculation of questioned costs, but include them
as a basis for our concerns related to PSN’s internal control environment.

      We discussed the circumstances surrounding the issue with both the
Executive Director and PSN’s accounting consultant to understand why the
personal use of organizational funds was allowed to continue for 2 years
before being stopped, in addition to why some organization funding spent by
the Executive Director on personal expenses was not repaid. The Executive
Director told us that the accounting consultant had repeatedly told him that
he was not permitted to use organizational funds for his personal expenses
or cash needs. The accounting consultant told us that the Executive Director


                                     -7­
stopped using the bank card and reimbursed PSN after the consultant told
the Executive Director that accounting services would no longer be provided
if he continued using the bank card in this manner.

      As to why some of the Executive Director’s personal use of PSN’s cash
was not repaid or classified as miscellaneous compensation, the Executive
Director told us he did not know. The accounting consultant did not answer
this question directly but told us that the expenditures were included on the
Executive Director’s IRS Form 1099 – Miscellaneous Income Statement, as
nonemployee compensation, since it would not be included on his IRS Form
W-2 Wage and Tax Statement.

       We do not believe it is accurate to classify the Executive Director’s
personal use of PSN’s grant funding as “nonemployee compensation” and
the Executive Director should have reimbursed PSN for these amounts as
well. However, PSN classified these personal outlays as related to the OJP
grant funding it received through a subgrant from FDRC. We have therefore
identified this issue in a separate report. 10

       Our review of control activities also included those controls regarding
payroll. We determined that PSN’s Executive Director’s, the organization’s
sole employee, daily activities were performed in relative isolation without
any oversight by the Board of Directors. The Executive Director also had the
sole discretion to determine the amount and frequency of his own
paychecks, as he directed a third party payroll provider to issue him a
paycheck without the knowledge of the Board. As discussed in the
Expenditure section of this report, the lack of any controls on the Executive
Director’s ability to write his own paycheck, on a monthly or bi-weekly basis,
likely resulted in the Executive Director increasing his salary between
January 2010 and March 2012 by $85,065 in excess of the amount
authorized by the Board of Directors, for a total salary of $287,565 during
this period.

      Another control that the Executive Director was able to override was
the requirement to provide sufficient documentation to support checks when
requesting payments to be prepared by the accounting consultant. As we
described in the expenditure section of this report, PSN did not provide
adequate support for expenditures, such as office utility payments. The



       10
           U.S. Department of Justice Office of the Inspector General, Audit of the Office of
Justice Programs Bureau of Justice Assistance Grants Awarded to the Father’s Day Rally
Committee Philadelphia, Pennsylvania, Audit Report GR-70-14-002 issued January 2014.




                                             -8­
accounting consultant told us that checks were often prepared at the request
of the Executive Director without supporting documentation provided.

      We discussed these issues with the Executive Director and he did not
dispute these deficiencies existed, however he told us he was more focused
on the program aspects of the grant rather than the fiscal aspects. The
Executive Director also told us that receiving the two OJP grants totaling
$800,000 to be used over a 2 year period was a large amount of funding for
an organization his size, and if OJP had provided more assistance, such as
informing him of the organization’s responsibilities as a grantee, these issues
could have been avoided. We disagree with what we interpret as the
Executive Director’s criticism of OJP for not providing PSN with more
assistance, especially when PSN applied for these grants voluntarily and the
Executive Director told us that OJP never failed to respond to any of his
requests for assistance.

      In addition, the substantial documentation OJP required the Executive
Director to review and sign in order to receive these grants served as his
recognition of PSN’s and his responsibilities for grant administration. One of
these documents, the accounting system and financial capability
questionnaire we described earlier, states that the grantee’s financial
responsibility must be such that the grantee can properly discharge the
public trust which accompanies the authority to expend public funds.

      We identified other issues with PSN’s internal controls specific to the
audit objective and discuss them in the respective sections of this report.

Grant Expenditures

Salary Expense

      According to the minutes of its initial meetings in early 2008, the
Board of Directors authorized a salary for the Executive Director of $90,000
per year based on his “extensive background” and the “competitive nature of
the nonprofit world.” As discussed in the internal control section of this
report, with the exception of this first act, we found that the Board of
Directors did not provide any further oversight of the Executive Director’s
compensation or review his performance.

      We reviewed other PSN documents that suggest the Executive
Director’s authorized salary had been changed. Although correspondence
between PSN and its initial funders, Pennsylvania and FDRC, indicated the
Executive Director’s maximum annual salary as $90,000, the two budgets
prepared by PSN in 2009 and 2010 and submitted to OJP for the grants we


                                     -9­
audited indicated the Executive Director’s salary was $99,000 per year. In
addition, we reviewed PSN’s application with the Internal Revenue Service
(IRS) for tax exempt status submitted in 2010 that indicated that the
Executive Director’s annual salary, $99,000, was approved by the PSN Board
of Directors and based on comparable salary studies using current market
place salaries. Based on our discussions with PSN Board members, we do
not believe any members were aware of the salary information provided to
OJP or the IRS.

       In addition to documents we reviewed that indicated the Executive
Director’s salary, the Executive Director and accounting consultant told us
that in late 2010 they determined a new salary maximum of $125,000 for
the Executive Director. The accounting consultant told us she spoke with
PSN’s independent CPA to ensure the amount was appropriate but did not
discuss the matter with the PSN Board of Directors. 11

       According to the Commonwealth of Pennsylvania, Office of the
Attorney General, individual employees of nonprofits should not be involved
in setting their own compensation. In addition, the level of compensation to
be paid should be determined independently by the Board of Directors or a
committee vested with the authority to set compensation. As the only salary
established for the Executive Director that was documented and authorized
by the PSN Board of Directors was $90,000, we have chosen this amount as
the maximum salary for the purposes of analyzing salary charges related to
these grants. The Executive Director’s actual annual salary fluctuated from
$86,876 up to $146,378 between January, 2009 and March, 2012. He
received a total of $374,442 in compensation during that 39 month time
period, and it was funded from multiple sources including a combined
$276,780 from the two grants within the scope of this audit, 2009-DI-BX­
0272 and 2010-DD-BX-0471, as well as $35,145 funded from the OJP
subgrant PSN received from the FDRC.

       In the following table we compare the Executive Director’s actual gross
salaries with the salary authorized by the Board of Directors.




      11
          PSN’s independent CPA told us she remembered having a discussion concerning the
Executive Director’s salary, but did not remember endorsing any salary amount.




                                         - 10 ­
                         Executive Director Salary Analysis
                                                      Actual Salary
                                                     (less than)/in
                   Authorized                           excess of
     Year*           Salary       Actual Salary12 Authorized Salary
      2009              $ 90,000         $ 86,876            $ (3,124)
      2010                90,000          146,378               56,378
      2011                90,000          114,859               24,859
      2012                22,500            26,328               3,828
     Totala            $292,500         $374,442              $81,942
    *This table excludes 2008 because PSN was not in operation for the entire year. The
     authorized salary for 2012 represents 3 months.
     a
      Totals may not sum due to rounding.
    Source: PSN

      At the initiation of our audit, we asked the Executive Director if he had
received any type of loans, such as advances on his salary, from PSN. The
Executive Director responded in writing stating, “With the knowledge of the
Board of Directors, (the Executive Director) has taken advances on his
monthly salary, in 2010 and 2011, to offset the personal affects(sic) of the
recession. His wife has been unemployed for 2 years and (the Executive
Director) asked the Board of Directors, could he take advances, when
necessary to stay current on personal financial obligations. These are not
’new’ dollars but advances from the salary line-item that has been
approved.”

       As previously mentioned, after reviewing Board meeting minutes and
interviewing all of the Board members, we determined that the Board did not
approve the advance the Executive Director described in his written
response. We also reviewed the response with the Executive Director to
ensure we had a complete understanding of the circumstances. After
speaking with the Executive Director regarding this issue, we determined
that the advances discussed in his written response amounted to a
temporary salary increase that he told us he did not intend to repay or “work
off” in the future. We believe another way of expressing what the Executive
Director stated was that he was eligible for an increase in his salary because
the combined amounts budgeted for salary in the two OJP grants was


       12
          To calculate the annual amount of excess salary paid with grant funding, we
compared actual salaries, paid from all of PSN’s funding sources, with the level established by
the Board of Directors. We believe this is reasonable as it was not possible to identify which
funding source was used for the approved and excess portions of actual salaries. In addition,
OJP funding from these grants and the OJP subgrant from FDRC comprise 83 percent of the
funding used for salaries between 2009 and 2012, or $311,925 of $374,422.




                                            - 11 ­
sufficient for him to increase his salary without requesting a budget
modification from OJP.

      As we describe in the Budget Management and Control section of this
report, the performance periods of the two OJP grants overlapped. Grant
2009-DI-BX-0272 was a 2-year grant starting September 2009 and grant
2010-DD-BX-0471 was a 1-year grant starting in October 2010. 13 Because
the planned grant periods for the two grants overlapped for 11 months and
OJP approved each grant application to pay 100 percent of the Executive
Director’s full time salary for each grant period, there was nearly enough
budgeted salary to pay 2 years of salary in just 1 year. Although the
combined grant budgets provided more funding than the minimum amount
necessary for PSN to pay the Executive Director’s salary, it did not justify
the use of grant funds for the payment of salaries in excess of the maximum
amount authorized by the organization’s Board of Directors. In addition, we
believe these actions amount to the Executive Director setting his own salary
which is prohibited by the Handbook for Charitable Nonprofit Organizations,
Commonwealth of Pennsylvania, Office of the Attorney General.

      We believe that the unauthorized, excess salary the Executive Director
paid himself, totaling $81,942, is unallowable and constitutes abuse. As
defined by generally accepted government auditing standards, abuse
involves behavior that is deficient or improper when compared with behavior
that a prudent person would consider reasonable and necessary business
practice given the facts and circumstances.

     In addition to the excess salary the Executive Director paid himself
without the approval or knowledge of the Board, we determined that the
salary he was paid was unreasonable. According to the Commonwealth of
Pennsylvania, Office of the Attorney General, “In the event that
compensation is received, the amount must be reasonable based on the
value of the services rendered; it must not be excessive.”

     We reviewed the Executive Director’s actual salary from all funding
sources totaling $374,442 as described in the table above. This included
funding of $276,780 provided from the two grants we audited that were
active between September 2009 and March 2012. As described in the
program performance section of this report, during this time PSN held 12



      13
          Subsequent to the award of each grant, PSN received no cost extensions for both
grants. However, grant 2009-D1-BX-0272 was extended from 24 months to 27 months and
grant 2010-DD-BX-0471 was extended from 12 months to 18 months.




                                         - 12 ­
gun buy-back events and about 11 gun safety workshops. 14 According to
the semi-annual progress reports that PSN submitted during this period, PSN
was either planning or holding gun buy-back events and workshops during
each 6 month period. These progress reports also indicated PSN was
working on programs with the Philadelphia Mayor’s Office. As presented in
the internal control environment section of this report, although the Board
approved the Executive Director’s salary at the time the organization was
formed, the Board never documented that it considered the value of his
services, evaluated his duties and responsibilities, or monitored his
performance. We therefore consider all of the salary expenditures for the
Executive Director to be unreasonable.

       As previously described in the Internal Control section of this report,
the PSN Board provided almost no oversight of the Executive Director’s day
to day activities and never evaluated his performance. In addition, the
Executive Director told us he did not maintain documentation that could be
used to evaluate his day to day activities during the grant period. According
to the OJP Financial Guide, salaries paid with grant funding must be
documented and approved by a responsible official of the organization. Even
in cases where 100 percent of salary charges relate entirely to one grant
award, after the fact certifications that the employee is working 100 percent
of their time on the grant award must be prepared no less frequently than
every 6 months, and must be signed by the employee and supervisory
official having firsthand knowledge of the work performed. Because none of
the Executive Director’s salary was documented according to the OJP
Financial Guide, we have determined all salary paid with grant funding
totaling $276,780 to be unsupported.

      We furthered our understanding of the nature of PSN’s expenditures
for the Executive Director’s salary by reviewing its audited financial
statements for 2008 and 2009. According to the statements, in both 2008
and 2009, 10 percent of the Executive Director’s salary was allocated to
fundraising activities. In addition, the Executive Director told us he believes
he also spent about 10 percent of his time on fundraising activities through
March 2012. We asked both the Executive Director and the independent

       14
           Between January 2009 and March 2012 PSN participated in 12 gun buy-back
events. We determined that for five of these events, PSN purchased gift cards with funding
from either grant 2009-D1-BX-0272 or 2010-DD-BX-0471. At another five events, PSN
purchased gift cards using funding from an OJP subgrant received from FDRC. At the
remaining two events, PSN purchased no gift cards but instead purchased radio advertising to
promote the events. Because PSN did not create documentation to track the disposition of
the gift cards by event, our reconciliation was based on the sum of cards purchased compared
to the number of guns collected at the 10 events for which PSN purchased gift cards.




                                          - 13 ­
CPA that completed the audit of the financial statements if they could
provide any documentation to support the assertion that 10 percent of the
Executive Director’s salary was related to fundraising. Both the Executive
Director and the independent CPA told us the 10 percent was an estimate
the Executive Director made without source documentation.

      According to the OJP Financial Guide, grant funding may not be used
to pay the salary of persons while engaged in fundraising activities. We
determined that between 2009 and 2012 PSN claimed that $37,444, or 10
percent of the Executive Director’s total salary of $374,442 over this period,
was related to fundraising activities and identified this amount as
unallowable.

      In summary, PSN used funding from the grants we audited for
Executive Director’s salary totaling $276,780. We determined that these
expenses were: (1) unallowable because it exceeded the amount authorized
by the PSN Board of Directors, (2) unreasonable because it was not based
on the value of services rendered, (3) unsupported, and
(4) unallowable because it was used to support fundraising activities.

Fringe Benefits Expense

      Related to the Executive Director’s salary expenses we reviewed, PSN
used grant funding totaling $69,614 to pay for fringe benefits including
payroll taxes, health insurance, and retirement plan expenses as part of the
Executive Director’s compensation. Although OJP approved the use of grant
funding for these fringe expenses and they were supported, we determined
the amount of grant funding used for these costs were excessive.
Additionally, included in this total are unallowable fringe benefits of $19,201
associated with salary that exceeded the amount approved by the PSN Board
and $7,712 specific to salary used to support fundraising activities.

      Our audit findings related to these fringe benefits mirror our salary
related audit findings and we question the entire amount of grant funding
used for fringe benefits totaling $69,614 as follows: (1) unallowable
because the benefits were based on a salary calculation that exceeded the
amount authorized by the PSN Board of Directors, (2) unreasonable because
the benefits were based on a salary that was not based on the value of
services rendered, (3) unsupported, and (4) unallowable because a portion
of the salary charges were expended in support of fundraising activities.




                                    - 14 ­
Gift Card Expenditures

      The “Goods for Guns” initiative was PSN’s major program and entailed
exchanging guns turned in by the public for grocery store gift cards.
Between July 2010 and March 2012, PSN financially supported seven “Goods
for Guns” events using funding from grant 2009-DD-BX-0272 or grant
2010-DD-BX-0417 in different locations around Philadelphia, Pennsylvania.

       At each of these events, the Philadelphia Police Department collected
guns while the PSN Executive Director or grocery store representatives
distributed $100 gift cards. The gift cards were generally purchased by PSN
from two local grocery stores, usually at a discount. However, one grocery
store also donated a total of 464 gift cards for events that occurred in 2009.

       We determined that between January 2009 and February 2012, PSN
purchased or received donated gift cards totaling $323,400. The amount
charged to the two OJP grants for gift cards was $265,215, and we
confirmed these amounts with the grocery stores that sold or donated the
gift cards. We also determined both OJP grant budgets provided for the
purchase of gift cards. Given the value and portability of these gift cards,
we provide a complete discussion regarding their disposition and PSN’s
actions to safeguard them in the Accountable Property section of this report.

Advertising Expenditures

      We determined that PSN used $104,900 in grant funding to promote
six gun buy-back events through local radio advertising. We performed a
testing of sampled invoices and determined that PSN’s use of grant funds for
the radio advertising was allowable and adequately supported.

Rent and Utilities Expenditures

      PSN’s principal place of business was an office rented for $600 per
month. As PSN’s sole employee, the Executive Director told us he worked
alone in this office 5 or 6 days per week except for times he was arranging
or holding gun buy-back events or workshops. Between December 2009 and
March 2012, PSN used grant funding totaling $17,482 to pay the rent and
related taxes. We determined these rent-related expenditures were
allowable as the costs were approved by the OJP in the grant budget and
supported by a written lease.

       PSN also used OJP grant funding to pay the costs of utilities for this
office totaling $9,694. The utilities included electric, cable, telephone, and
internet service. While the utility expenditures were allowable according to


                                     - 15 ­
the grant budget approved by OJP, we requested but did not receive from
PSN the invoices associated with the utilities. As a result, we identified the
utility expenditures totaling $9,694 as unsupported as we could not
determine what the charges were made for specifically, or whether the
charges were related to the grants we audited.

      As described in the internal control section of this report, the Executive
Director frequently instructed the accounting consultant to prepare
disbursement checks without providing the supporting documentation. The
accounting consultant told us the Executive Director was repeatedly asked to
provide support for utility payment requests, but these instructions were
often not followed.

       In addition to maintaining an office used by its Executive Director, PSN
rented an entire building to operate a Senior Safety Program. Between
November 2010 and March 2012, PSN charged $29,750 in OJP grant funding
to pay the monthly rent of $1,750 on this building and another $4,253 for
related utilities for a total of $34,003. At the conclusion of this audit, the
Executive Director told us that during the time PSN paid rent for this
building, the building had been used less than 12 times for workshops or
similar events. Because the building was used, on average, less than 1 day
per month for workshops and PSN was still renting its principal office for
$600 per month, we asked the Executive Director whether a more cost
efficient space could have been secured from another civic organization in
the area at a lower cost or on a donated basis. The Executive Director told
us that he decided to rent this building for its location and to avoid
negotiating for space elsewhere that may not have been available at all
times. In addition, the Executive Director told us it was not fair to second
guess his decisions at the end of the grant when OJP did not assist him
during the grant.

        In summary, we determined that PSN’s utility expenses related to its
primary office, $9,694, and for the separate building used to operate the
Senior Safety Program, $4,253, totaling $13,947, were unsupported. We
also believe the $29,750 charged to the grants for rent and $4,253 for
utilities, totaling $34,003, on the separate under-utilized building was an
unreasonable use of grant funding and we identified these expenditures as
questioned costs.




                                     - 16 ­
Accounting Consultant

      As described in the internal control environment section of this report,
PSN hired a commercial consultant who provided bookkeeping services using
its own accounting system. 15 We determined that PSN paid the consultant
$1,203 per month for services related to grant 2009-D1-BX-0272 and
$1,126 per month for services related to grant 2010-DD-BX-0471, for a total
of $52,792. 16 As we interacted extensively with PSN’s accounting consultant
and used its records in completing our audit, we determined the amounts
paid to the consultant were supported and allowable per the grant budgets.

     We reviewed the written contract between PSN and its accounting
consultant, which authorized the monthly payments to the contractor for the
OJP grants based on 6 percent of the total grant

      We also reviewed the contract between PSN and its accounting
consultant that was in place prior to receiving these OJP grants, which based
the consultant’s monthly payment on estimated hours and rates for specific
services being provided. The monthly payment under this contract was
calculated at $1,040 based on 18 hours of services at rates ranging from
$50 to $150 per hour and averaging $57.78 per hour.

      However, according to the OJP Financial Guide in effect at the time
PSN hired its accounting consultant, these types of commercial organizations
were subject to competitive bidding procedures. The Executive Director told
us he selected the accounting consultant based on a recommendation and
did not use a competitive bidding process.

      Therefore, because PSN did not adhere to OJP’s requirements related
to commercial consultants, we have identified the entire amount they were
paid from grant funding, $52,792, as unallowable. In addition, we believe it
was inappropriate for PSN to use a percentage of the overall grant amount
as the basis for the consultant fees.

Accountable Property

        As described in the expenditure section, PSN's “Goods for Guns”
initiative distributed purchased and donated $100 grocery store gift cards in
exchange for each gun surrendered to the Philadelphia Police Department.

       15
         The 2009 OJP Financial Guide treats commercial consultants differently than
independent consultants.
       16
            One of the 28 monthly payments related to grant 2009-D1-BX-0272 was $1,168.




                                          - 17 ­
Given the value and portability of these gift cards, we considered them
accountable property for the purpose of our audit.

       As part of this audit, we sought to account for (1) the number of gift
cards purchased or donated for the program, (2) the number of gift cards
distributed according to grocery store records, and (3) the number of guns
collected according to police department reports. In total, PSN held 12
“Goods for Guns” events between January 2009 and March 2012. We
determined the procedures used to safeguard the gift cards at the first seven
events were different than the following five events, and we discuss them
separately in the remainder of this section.

       We determined that for the first seven events, which included five
events funded by the subgrant FDRC and two events funded by grant
2009-DD-BX-0272, the representatives of the grocery stores that sold or
donated gift cards to PSN also maintained continuous custody of the cards
until they were handed to the members of the public who surrendered guns
to police officers. Only at the conclusion of the seventh event did the PSN
Executive Director take physical possession of any gift cards. We also
determined that at each of these events, the PSN Executive Director did not
document the number of cards distributed or reconcile the number of cards
distributed with the number of guns collected according to police department
reports.

       At the conclusion of the seventh event on October 30, 2010, grocery
store records indicated that 170 gift cards were turned over to the PSN
Executive Director. Prior to the next event in October 2011, we determined
through our own physical count that PSN had 169 gift cards on hand in its
offices. The PSN Executive Director told us he had no records to track the
number of cards in PSN's possession and the gift cards were kept in a PSN
filing cabinet.

      At the three remaining “Goods for Guns” events between October 2011
and March 2012 for which PSN purchased gift cards, the grocery store
representatives had no role in maintaining custody or distributing cards at
the events. The PSN Executive Director told us that he purchased the gift
cards from the stores prior to the events rather than having store
representatives provide the cards at the events. He then brought the gift
cards to each event, distributed the gift cards at each event, then returned
any unused gift cards to the PSN office for use at a future event. He also
told us he did not document the number of gift cards distributed at each
event or reconcile the number of gift cards distributed with the number of
guns collected.



                                   - 18 ­
      We asked the PSN Executive Director and grocery store
representatives why the number of gift cards distributed did not match the
number of gift cards purchased and donated when compared to the number
of guns collected. The Executive Director explained the difference was likely
due to gift cards being distributed to people who turned in toy guns or
broken guns and these were not reported in the police department reports.
In two events, police department reports noted that toy guns were turned
in, however there was no documentation supporting whether gift cards were
provided for the toy guns in these instances and no documentation of toy
guns being submitted existed for the other events.

      We conducted another physical count of the cards in September 2012
and determined that although the grant had ended 6 months earlier, the
Executive Director still had 83 cards, worth $8,300 in his possession. We
asked the PSN Executive Director why he still had these gift cards and what
he planned to do with the cards. The Executive Director told us that he
maintained possession of the cards at his home after the conclusion of the
grants and that the OJP grant manager had been attempting to contact him
and that he was planning to call the grant manager back to discuss this and
other issues.

       In addition to the gift cards that had been provided to those
individuals trading in guns at the grant sponsored events, the Executive
Director also told us that he had given about 12 cards to individuals who
showed up at the events that he described as hungry and poor, but who did
not trade in a gun for a card.

      In summary, during our audit we determined that the number of gift
cards purchased and donated for the “Goods for Guns” programs exceeded
the number of guns collected by 280, with an overall value of $28,000.
From our review of the available documentation during the course of the
audit, PSN purchased or was given 3,234 gift cards but only collected 2,871
guns. Of the 363 in excess gift cards, we determined that PSN still held 83
cards after both grants had concluded and did not use them for grant
purposes. Accordingly, we have identified the cost of these cards, $8,300,
as unallowable. In addition, we consider the remaining balance of 280 gift
cards as unaccounted for. Because PSN did not separately account for those
cards purchased and donated, we must consider all the unaccounted cards
as being grant-funded at their full value and unsupported grant
expenditures. As a result, we question $28,000 of unsupported grant
expenditures.




                                   - 19 ­
Drawdowns

      We reviewed the timing and amounts of the requests for grant funding
or drawdowns that PSN made related to these two OJP grants. We also
reviewed the procedures PSN followed to ensure these requests complied
with related OJP requirements. According to the OJP Financial Guide,
drawdowns of grant funding must be based on the immediate cash needs of
the grantee as a reimbursement for expenditures already paid by the
grantee or as an advance to pay expenditures in the near future. In the
case of drawdowns as advances, if grantees do not spend the funds received
within 10 days, the funding should be returned to OJP until such time that it
is needed.

     According to OJP records, PSN received $771,137 through 52 separate
requests for the 2 OJP grants. The following table summarizes the funding
PSN received.

                Drawdown Summary for PSN Grants
                       as of August 2012
                        Number of      Net Drawdown
          Grant        Drawdowns            Total
     2009-D1-BX-0272         31                $495,051
     2010-DD-BX-0471         21                  276,086
          Total             52                $771,137
        Source: OJP

     The PSN Executive Director told us that he, rather than the accounting
consultant, made the drawdowns for both OJP grants, and the drawdowns
were made in advance of incurring or paying for underlying expenditures.

      When we examined the listing of drawdowns related to grant
2010-DD-0471, we noted PSN returned $80,000 in grant funds during April
2011. Prior to this repayment, PSN requested and received approximately
$103,000 between December 2010 and February 2011. When we examined
PSN’s bank statements, we discovered that one of PSN’s bank accounts had
an average daily balance of approximately $90,000 for more than 70 days.

      In addition, after both grants performance periods were over in July
2012, we compared the value of all drawdowns with the amount of
expenditures reported in the accounting records. This comparison showed
that PSN had received drawdowns totaling $790,681 but only recorded grant
related expenditures of $771,353, resulting in excess cash on hand of
$19,328. According to OJP records, PSN’s final drawdown was made on
February 24, 2012, for $18,000, indicating that PSN had excess grant cash


                                   - 20 ­
on hand for approximately 4 months after the conclusion of the grant
performance period because both grants ended on March 31, 2012. We also
determined from its accounting reports that PSN had excess cash from its
OJP subgrant from FDRC and its state grants from Pennsylvania. The
following table summarizes the excess grant funds PSN held after each of
these grants concluded.

                 Summary of Excess Cash Held by PSN
              Grant                     Excess Cash Held
              PSN OJP Grant 2010                 $ 14,379
              PSN OJP Grant 2009                    4,949
              FDRC OJP Grant                        3,441
              Pennsylvania State Grants             4,075
              Total                              $ 26,844
             Source: OIG analysis.

      In July 2012, we inspected PSN’s banking records to determine
whether the bank accounts contained the $19,328 in excess cash related to
these two OJP grants. According to its June 2012 bank statements, PSN had
$20,101 in cash in separate bank accounts, $6,743 less than the amount we
calculated as excess grant cash. We discussed the issue of excess cash on
hand with the Executive Director who told us that after the problems related
to the use of the bank card for personal expenditures, he did not pay close
attention to the bank accounts.

      Also, in July 2012, and unrelated to our audit, OJP requested that PSN
return the excess funds drawn down related to grants 2009-D1-BX-0272 and
2010-DD-BX-0471. We determined PSN finally returned the excess
drawdowns on these grants in August 2012 after having this excess cash on
hand since January 2012 for grant 2009-D1-BX-0272 and February 2012 for
grant 2010-DD-BX-0471. In addition, the Executive Director expressed to
us that he intended to repay the excess cash received from the OJP subgrant
PSN received from FDRC. This issue is addressed in a separate OIG audit
report covering grant 2008-DD-BX-0575.

Budget Management and Control

      We determined that prior to awarding PSN these two grants, OJP
approved a spending plan for each grant that specified the cost categories
and amounts to be spent for each category. According to the OJP Financial
Guide, grantee’s actual spending may not exceed any budget cost category
by more than 10 percent of the total grant award without approval from the
granting agency. The following table presents PSN’s approved budgets for
each grant.


                                     - 21 ­
            Budget Analysis for OJP Grants Awarded to PSN
                                                        Total
     Grant         2009-D1-BX­       2010-DD-BX­       (both
     Number            0272              0471         grants)
     Grant Period 9/1/09-8/31/11    10/1/10-9/30/11  25 monthsa
     Cost Category
     Salary              $198,000          $ 99,000     $297,000
     Fringe                 60,429            32,185      92,614
     Supplies                    0            45,000      45,000
     Equipment               2,197                 0       2,197
     Contractual            82,590          115,795      198,385
     Other                156,784              8,020     164,804
     Total              $500,000          $300,000     $800,000
       a. Grant period of 25 months calculated from 9/1/09 to 9/30/11.

       Source: PSN


      We compared PSN’s actual spending in each of the approved cost
categories for each grant and determined PSN did not exceed any grant
category by more than 10 percent. However, as shown in the preceding
table, the two planned grant periods overlapped for 11 months, from
October 2010 through August 2011. Because Salary and Fringe amounts
were both budgeted for during the same period, this created excess funding
that the Executive Director used to pay himself above his salary approved by
the PSN Board of Directors ($90,000) and OJP ($99,000).

      As we described in the Grant Expenditure section of this report, the
combined grant budgets provided more funding than necessary for PSN to
pay the Executive Director’s salary. Although it provides additional funding,
the approved OJP funding does not give PSN the authority to use grant
funding to pay actual salaries in excess of the amount authorized by the
organization’s Board of Directors. As a result, the excess salary was
questioned in the Grant Expenditures section.

Reporting

      Federal Financial Reports (FFRs) and progress reports are the principal
methods OJP uses to monitor performance of its grants. 17 FFRs summarize,
federal monies spent, unliquidated obligations incurred, and unobligated


       17
         As of October 2009, OJP renamed FSRs Federal Financial Reports (FFRs) and
changed the reporting date from 45 to 30 following the end of the previous calendar quarter.




                                           - 22 ­
balances of federal funds for each calendar quarter. Progress reports
describe the activities grantees have achieved or are planning on a semi­
annual basis.

      We determined PSN was required to submit 10 FFRs related to grant
2009-D1-BX-0272 and 6 FFRs related to grant 2010-DD-BX-0471. We
determined the 16 FFRs submitted by PSN were accurate. However, we
found that four of the reports were late by more than 5 days - OJP requires
grantees to submit FFRs within 30 days following the end of each calendar
quarter. Of particular concern, we found that the final FFRs for grants 2009­
D1-BX-0272 and 2010-DD-BX-0471 were submitted 85 and 94 days late
respectively.

       We also reviewed the nine progress reports PSN was required to
submit for each grant. These reports indicated the planned and completed
actions related to each grant using information PSN provided in response to
standard questions and brief narratives. We determined the final report for
each grant was never submitted, and two other progress reports were not
submitted on time. The following table is our summary of the most
significant accomplishments PSN described in its progress reports related to
the OJP grants.




                                   - 23 ­
           Progress Report Summary for Grants Awarded to PSN
 Period
                   Grant 2009-D1-BX-0272              Grant 2010-DD-BX-0471
 Ending
           Re-established partnerships with        No report required.
           local elected officials,
12/31/2009 supermarkets, and radio station
                                                   Grant start date 10/1/2010
           to hold gun buy-back events and
           planning events
           1 workshop for 25 school                No report required.
06/30/2010 children, 1 gun buy-back event
                                                   Grant start date 10/1/2010
           collected 375 guns
           1 workshop for 50 school                Established Senior Safety Center,
12/31/2010 children, 1 gun buy-back events         mailed flyers, planned for gun
           collected 275 guns                      buy-back events
                                                   3 Senior Safety Workshops, 2
           3 Senior Safety workshops, 3
                                                   mailings for 5,000 households,
           workshops for school children,
06/30/2011                                         developed coordinating activities
           collaborated with Philadelphia
                                                   with the Philadelphia Mayor's
           Mayor's Office
                                                   Office
                                                   Scheduled 3 workshops for 100
                                                   school children, held 3 gun buy­
12/31/2011 No report submitted                     back events collecting over 1,000
                                                   guns, collected 75 surveys by
                                                   visiting 500 homes
                No report required.
06/30/2012                                         No report submitted.
                Grant end date 12/31/11
  Source: OJP

         We believe the information from the progress reports summarized in
  the table above, and other information PSN included in these progress
  reports, is generally consistent with what we learned about the grant-funded
  activities through interviews we conducted and our review of expenditures.
  Because we verified the number of guns collected in our review of PSN’s
  handling of the related gift cards, we were able to verify the number of guns
  collected according to the progress reports. We found that each of the three
  reports that indicated the number of guns collected were misstated as
  follows:

     •	 The June 30, 2010, report for grant 2009-DI-BX-0272 overstated the
        number of guns collected by 25,375 compared to 350 actual.

     •	 The December 31, 2010, report for grant 2009-DI-BX-0272 overstated
        the number of guns collected by 18,275 compared to 257 actual.


                                          - 24 ­
   •	 The December 31, 2011, report for grant 2010-DD-BX-0471 reported
      that over 1,000 guns were collected but does not indicate that over
      500 of these guns were collected by another nonprofit organization
      using state grant funding. PSN’s involvement was limited to the
      purchase of advertising to promote the events.

Program Performance and Accomplishments

     The following table presents the performance goals for each OJP grant
awarded to PSN.

        Performance Measures for OJP Grants Awarded to PSN
                                         Number of
                                            school    Number of
                              Number of   children      people
                                adults   attending     reached
                     Guns to  attending    firearm   using safety
                        be    gun safety awareness    tips radio
         Grant      collected workshops workshops        effort
  2009-D1-BX-0272       2,000        200         200        10,000
  2010-DD-BX-0471       1,000        100         100        10,000
  Total                 3,000        300         300        20,000
      Source: OJP

      Because PSN's primary program involved reducing the number guns
available to commit crime, and we verified the number of guns collected in
our review of PSN’s handling of the related gift cards, we focused our review
of PSN's grant-related accomplishments on the goals related to collecting
guns. The performance measures proposed by PSN and approved by OJP at
the start of these grants established a number of gun buy-back events to be
held and the number of guns to be collected. We determined that,
combined, there were a total of 10 planned events for the 2 OJP grants; 8
related to grant 2009-D1-BX-0272 and 2 related to grant 2010-DD-BX-0471.
While we verified that PSN held the two planned events related to grant
2010-DD-BX-0471, it only held four of the eight planned events related to
grant 2009-D1-BX-0272.

       We also measured PSN's performance collecting guns by comparing
the goals established in grant award documentation to the actual number of
guns collected using grant funds. We determined that the amount of
funding budgeted for these grants was not sufficient to purchase the number
of gift cards necessary to collect the number of guns established in the grant
documentation. Therefore, we compared the number of $100 gift cards that


                                    - 25 ­
could be purchased with the budgeted amounts with the actual number of
guns collected. The following table summarizes this comparison.

      Analysis of Guns Collected and Related Performance Goals
                            Number of     Number of      Number of
                             guns to    guns possible   guns actually
                            collect per to collect with   collected
                           performance    budgeted       using grant
   Grant                        goal        funding        funding
  Grant 2009-D1-BX-0272           2,000           1,200           904
  Grant 2010-DD-BX-0471           1,000             400           325
  Total                           3,000           1,600         1,229
     Source: OJP and OIG analysis

      The remaining performance goal involved using radio advertising to
provide gun safety tips to 20,000 people. The invoices for the radio
advertising expenses we reviewed indicated the purpose of the radio
advertising was to promote the gun buy-back events and not to provide gun
safety tips.

      Although we determined PSN demonstrated that it worked toward
achieving the performance goals established for these grants, it did not meet
the primary goals related to the number of gun buy-back events held and
the number of guns collected using budgeted grant funding. PSN also did
not provide us with documentation indicating it achieved the performance
goals related to providing workshops for school children and adults or
implementing the radio safety tip program.

      In addition to our concerns regarding PSN’s effectiveness in achieving
its goals, we are equally concerned with PSN's inefficient use of OJP grant
funding. In our opinion, the level of activity related to a small number of
events and workshops did not justify the substantial amount of grant
funding received. In particular we are concerned that OJP grant funding was
used for the Executive Director's salary that we consider excessive and
unreasonable, as well as the lack of oversight provided by the Board of
Directors, and the unnecessary rent and utilities paid for a second building
that was underutilized.

     In our view, we are confident that gun buy-back programs can be
implemented at much lower costs compared to the way PSN implemented its
program using OJP grants.




                                    - 26 ­
Conclusions

      We determined that PSN had several internal control deficiencies in
performing its grant-related program, and as a result, these deficiencies led
to our audit findings. Specifically, the lack of proper oversight enabled the
Executive Director to receive advances to a salary not authorized by the PSN
Board of Directors. In addition, the overlapping grant periods provided the
Executive Director with excess salary. We believe the Executive Director’s
compensation was unallowable and unreasonable.

      We also determined that PSN charged unallowable and unsupported
grant expenditures to the grants. PSN failed to properly safeguard grant-
funded property, had excess cash on hand, and did not meet the primary
goals related to the number of gun buy-back events held and the number of
guns collected using budgeted grant funds.

      Because of these deficiencies, we identified $ 479,183 in expenditures
that were either unallowable, unsupported, or unreasonable.

Recommendations

We recommend that OJP:

     1. Ensure that PSN establishes and adheres to internal control
        practices that: (a) prevent the appearance of impropriety by
        avoiding potential or apparent conflicts of interests on its Board of
        Directors, (b) provide oversight of the Executive Director by its
        Board of Directors, (c) maintain supporting documentation for all
        expenditures, (d) detect and prevent the use of grant funds for
        personal purposes in a timely manner, (e) ensure accountable
        property is properly safeguarded, (f) ensure payments to
        consultants conform with OJP requirements, (g) ensure requests for
        grant funding are based on immediate cash needs in order to avoid
        excess cash on hand, (h) avoid potentially wasteful spending using
        cost benefit analyses for significant expenditures, and (i) ensure
        timely reporting.

     2. Ensure that PSN establishes and adheres to policies and procedures
        to ensure that: (a) the Executive Director’s compensation is based
        on an analysis of his documented workload and performance,
        (b) the Executive Director is not paid in excess of his Board
        approved salary and fringe benefit levels, and (c) OJP grant funding
        is not used for the Executive Director’s fundraising activities.



                                   - 27 ­
      3. Remedy $101,143 in questioned unallowable costs, which include
         the Executive Director’s salary ($81,942) and associated fringe
         benefits ($19,201) paid with OJP grant funding, but were not
         approved by the PSN Board of Directors.

      4. Remedy $346,394 in questioned unreasonable costs, which include
         the Executive Director’s salary ($276,780) and associated fringe
         benefits ($69,614) paid with OJP grant funding, but were neither
         approved by the PSN Board of Directors, nor based on the value of
         services rendered.

      5. Remedy $346,394 in questioned unsupported costs, which include
         the Executive Director’s salary ($276,780) and associated fringe
         benefits ($69,614) paid with OJP grant funding, but were neither
         approved by the PSN Board of Directors, nor adequately
         documented in accordance with the grant terms.

      6. Remedy $45,156 in questioned unallowable costs, which represents
         the portion of the Executive Director’s salary ($37,444) and
         associated fringe benefits ($7,712) paid with OJP grant funding
         which PSN estimates was used for fundraising activities.

      7. Remedy the $8,300 in questioned unallowable costs for gift card
         expenditures that did not result in guns collected by the Philadelphia
         Police Department.

      8. Remedy $28,000 in questioned unsupported costs for gift card
         expenditures that did not result in guns collected by the Philadelphia
         Police Department.

      9. Remedy $13,947 in questioned unsupported costs for utility
         expenditures which were not adequately documented in accordance
         with grant terms.

      10.Remedy $34,003 in questioned unreasonable costs for rent and
         utilities on an underutilized building.

      11.Remedy $52,792 in unallowable consultant expenditures. 18



       18
          The draft audit report we provided to OJP and PSN incorrectly identified the amount
of questioned costs related to Recommendation 11 as totaling $53,915. This final report has
been revised to identify the correct amount of $52,792.




                                           - 28 ­
                                                             APPENDIX I


            OBJECTIVE, SCOPE, AND METHODOLOGY

       The purpose of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed PSN’s program performance in
meeting the grant objectives and overall accomplishments. The objective of
our audit was to review performance in the following areas:
(1) internal control environment, (2) grant expenditures, (3) accountable
property, (4) drawdowns (5) budget management and control, (6) reporting,
and (7) program performance and accomplishments. We determined that
program income, matching costs, indirect costs, and monitoring of
contractors and subgrantees were not applicable to these grants.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we used sample testing while testing grant
expenditures. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
high dollar amounts or expenditure category based on the approved grant
budget. This non-statistical sample design does not allow for the projection
of the test results to the universes from which the samples were selected.

      Our audit concentrated on, but was not limited to, the award of the
2009-D1-BX-0272 grant on September 1, 2009, through August 2012.
This was an audit of the Office of Justice Program’s Edward Byrne
Memorial Justice Assistance Grants numbers 2009-D1-BX-0272 and
2010-DD-BX-0471 awarded to the Project Safety Net Program (PSN) of
Philadelphia, Pennsylvania, in the amounts of $500,000 and $300,000.
PSN had a total of $771,137 in net drawdowns in August 2012.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.




                                   - 29 ­
       In conducting our audit, we reviewed all claimed grant-related
expenditures and drawdowns. In addition, we reviewed the timeliness and
accuracy of FFRs and progress reports, and evaluated the performance of
the grants in relation to the grant objectives. However, we did not test the
reliability of the PSN’s financial management system as a whole.




                                    - 30 ­
                                                                           APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS 19                                                  AMOUNT             PAGE

Unallowable Costs:
  Director’s salary in excess of Board approved levels                 $    81,942        11
  Director’s salary related to fundraising activities                       37,444        14
  Director’s fringe benefits in excess of Board
    approved levels                                                         19,201        14
  Director’s fringe benefits related to fundraising
    activities                                                            7,712           14
  Consultant expenditures                                                52,792           17
  Gift card expenditures                                                  8,300           19
Total Unallowable Costs                                               $207,391

Unsupported Costs:
  Director’s salary                                                    $276,780           13
  Director’s fringe benefits                                             69,614           14
  Utilities expenditures                                                 13,947           16
  Gift card expenditures                                                 28,000           19
Total Unsupported Costs                                               $388,341

Unreasonable Costs:
  Director’s salary                                                   $ 276,780           13
  Director’s fringe benefits                                             69,614           14
  Rent and utilities on an underused building                            34,003           16
Total Unreasonable Costs                                              $380,397

TOTAL GROSS QUESTIONED COSTS                                          $976,129
    LESS DUPLICATION 20                                             ($496,946)
TOTAL NET QUESTIONED COSTS                                            $479,183




       19
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
       20
         These costs relate to identical expenditures—though questioned for separate
reasons—and as a result, that portion of questioned costs is duplicated. We reduced the
amount of gross questioned costs by the amount of this duplication to identify net questioned
costs.




                                           - 31 ­
                                                                                            APPENDIX III


          PHILADELPHIA SAFETY NET

     RESPONSE TO THE DRAFT AUDIT REPORT




Introduction IliIrriitiyej

Philadelphia Safety Net is indebted to the support of the Edward Byrne Memorial Justice Assistance
Grant award process for its support of the activities of Philadelphia Safety Net. As a 'new' non -profit,
our aim in eKe cuting our grants was to collect guns off the street from dangerous neighborhoods and
eduCiite Philadelphia re5idents on violence prevention/safety issues. It is our hope that our actions and
activities will receive fair consideration. We have included the accounting system and financial
Cilpability questionnaire, schedule A, attached to item number 11 on th e recomme ndation. We are
requesting that not make this scheduled A documen t public.

 Philadelphia Safety Net's Executive Director, Raymond Jones'. responses to audit recommendations
                                               sugge*dby

                      The U.S. Department of Justice, Office of the Inspector General

1. Ensure that P5N establishes and adheres to internal {ontro/ practices that: (01. prevent the appearance
o{jmproprietv by avoiding potential orapoorent conflicts ofinterests on its Boord ofDiredors. (PSN
response) Philadelphia Safety Net concurs with this recommendation and has currently suspended all
operations of the organization until a new board of directors are elected. In January, 2014,
Philadelphia Safety Net president,. Raymond Jones, will meet with an independent professional non­
profit consultant to discuss an eKtensive plan to educated and recruit new board members and re­
examine the mission of Philadelphia Safety as it relates to board oversight and the parameters of the
Executive Director.

(b). provide oversight of the Executive Director byits Boord of Directors (PSN response) Philadelphia
safety Net concurs with this recommendation and in January, 2014, under the direction of the
professionill non-profit filciliti!tor, the Executive Director will ilCcept ilny and illi deti!iled
recommendations to ensure holistic and transparent long-term discipline oversight with the
necesury protective and punitive measures in place.

(c). maintain supporting documentation for all expenditures (PSN response) PhiiOldelphiOl SOIfety Net
concurs with this assessment. However, all supporting documentilltion was provided to DOJ except as
OIddreS5ed in number 9.

(d) . detect and prevent the use ofqrant funds for personal purposes in a timely manner (PSN response)
Philadelphia Safety Netconcurs with this recommendation and the time table for these regulations
will become iI put ofthe Jilnuilry, 2014 overilll il5SeSSment of the non-profit, Philildelphiil Silfety Net,
using the audit as a basis for re-eKamining strengths, ~aknesses, opportunities and threats of the
organizations-complete with a time·table for improvements and changes.

(e). ensure accountable property is prooerlysofequorded (PSN response) Philildelphiil Silfety Net
concurs with this recommendOltion OInd will OIddress this issue OIt the JOInuOlry, 2014 OIssessment
overview.




                                                 - 32 ­
(f). ensure payments to consultants conform with OlP requirements (PSN response) Philildelphiil Silfety
net disagrees with this recommendation. The aoco unting professionals were 'co nsultilnhi' of
Philildelphiil Safety Net~ PSN received the DOJ grants. The consultilnt activity WilS then
elrtended throughout the life of the federill grilnts.

(g). ensure requests far qrant fundinq are based on immediate case needs in arder ta avoid exceu cash
an hand (PSN response) Philildelphiil Safety Net~ with thilt recommendiltion and WilS
requested to return excess fund!; and did, expeditiouslV. The meeting in January, 2014, will address
this issue ilnd ilil ilctivity thilt Philildelphiil Safety Net focuses on in the future (complete with
meilSurilble outcomes il nd qUilntifiilbie gOills).

(h). avoid potentially wasteful spending using cast benefit analnes fCN significant expenditures (PSN
response) Philadelphia Safety Net~ with this re<:ammendatian and will address this item in the
lilnuary, 2014, assessment and "re-examination" of Philadelphia Safety Net's mission, policies, goals
ilnd long-term focus.

(i). ensure timelyreportinq (PSN response) Philadelphia Safety Net agrees with thili recommendation
and will address this item in the January, 2014, assessment and ' re-exa mination' of Philadelphia
Safety Net's mission, policies, gOills ilnd long-term focus.

2. Ensue that PSN establishes and adheres to polides and procedures to ensure that: 10/ the Executive
Director's compensation is based on an analvsis of his documented workload and performance (PSN
response) Philadelphia Safety Net disagrees with this recommendation and, du e to the 'duties' that
the Executive Director performed, the salary was commiserate with an executive in the corporate
world who milnilged iI simililr budget ilnd WilS responsible for simililr outcomes with the end work
experience.

(b). The Executive Director is not paid in excess of this Boord approved salary and fringe benefits levels
(PSN conCUrs-in part. although there was not written approval, the Exeeutive Director justified the
increilSe in polrt beciluse of the understilnding the budget could be chilnged, ilS long ilS the chilnge did
not exceed 10% of the budget (The OlP rules stipulate that the grantee did nat need "approval" to
change the budget as long as the budget did nat exceed 10% of the budget. It was the understilnding
of the Executive Director thilt chilnges illso included 5illilry).

 (C). OlP grant funding is not used far the Executive Director's fundraisinq activities (PSN response)
Philadelphiil ~with this recommendation. The funds used for 'exploring' possible grilnt
opportunities were less than 1% of the total grants.

3. Rem edy $101, 143 in questioned unallowable costs, which include the Exeeutive Direetor's salary of
($81,942) and associated fringe benefits ($19,201) paid with OlP grant funding but were not approved
by the PSN Board of Directors) .( PSN response) Philadelphia Safety Net disagrees with this response.
Under the contract and execution of both grants, the executive director duties were as follows:
Project Manager, responsible for locations, logistics and follow-up of events. Public Relations
Director, responsible for writing public service .mnouncements, scheduling meetings with the press




                                                 - 33 ­
imd developing contents for flyers imd postnrds. Grimt milmlger, responsible for sending repor15 to
the Department of Justke and following the process of executing the grants. Office Manager,
processing the dily-to-dilY operiltionill functions for PSN including pilying bills .md milnaging two
offices. Outreach Coordinator, responsible for scheduling Training for the Philadelphia safety Net
community outreach project in the Mt. Airy section of Philadelphia.



4. Remedy $346, 394 in questioned un reasonable costs, whic h in clude the Executive Director's salary
(276.780) and associated fringe benefits ($69,614) paid with OJP gra nt fundin~ but were approved by
the PSN Board of Directo rs.( PSN response) Philadelphia safety Net disagrees with this response.
Under the contrilct ilnd execution of both grilnts, the executive director duties were ilS follows:
Project Manager, responsible for locations, logistics and follow-up of events. Public Relations
Director, responsible for writing public service announcements, scheduling meetings with the press
ilnd developing contents for flyers ilnd postnrds. Grilnt milnilger, responsible for sending repor15 to
the Department of Justice and following the process of executing the grants. Office Manager,
processing the day-to-day operational functions for PSN including paying bills and managing two
offices. Outreilch Coordiniltor, responsible for scheduling Trilining for the Philildelphiil Silfety Net
community outreach project in the Mt. Airy section of Philadelphia.

5. Remedy $346,394 in questioned un supported costs, whi ch incl ude the Execut ive Di rector's salary
($276,780) and associated frin ge be nefits ($69,61 4) paid with OJP grant funding, but were ne ithe r
a pproved by the PSN Board of Di rectors, not adequately documented in accordance with the gra nt
terms .( PSN response) Philildelphiil safety Net disilgrees with this response. Under the contrilctilnd
eKecution of both grants, the executive director duties were as follows: Project Manager, responsible
for lontions, logistics imd follow-up of events. Public Reliltions Director, responsible for writing
public service ilnnouncements, scheduling meetings with the press ilnd developing contents for flyers
ilnd postnrds. Grilnt milnilger, responsible for sending repor15 to the Depoutment of Justice ilnd
followins the process of executing the grilnts. Office Milnilser, processing the day-to-dilY operiltionill
functions for PSN including paying bills and managing two offices. Outreach Coordinator, responsible
for scheduling Trilining for the Philildelphiil Silfety Net community outreilch project in the Mt. Airy
section of Philadelphia.

6. Remedy $45,156 in qu estio ned unallowabl e Costs, whi ch re presents the portion of the Exe<utive
Directors salary ($37,444) and associated friend benefits ($7,712) paid with OJP grant funding which
estimates was used for hmdraising activities. (PSN response ) disilgrees with ilssessment ilnd is not cleilr
on how costs were detennined.

7. Remedy th e $8,300 in questioned unallowabl e costs for gi ft card expenditures that did not result in
gun collected by the Philadelphia Police Departm ent. (PSN response) Philildelphiil safety Net diSj!grees
with this recommendiltion hils provided support for ilil purchilses of gift nrds ilnd PSN still hilS CilrdS
in its possession (pleilse note enclosed e-mail regarding additional gift cards).




                                                - 34 ­
8. Remed y $28,000 in questio ned unsupported costs for gift card expenditures that did not result in
guns coll ected by the Philadelphia Police Department. (PSN response) Philadelphia Safety net disa!!rees
with this recommendation and has provided support for all purchases of gift cards and PSN still has
cards in its possession as stated in the supporting documents.

9. Remedy $13,94 7 in questioned unsupported costs for uti lity expenditures which we re not adequately
documented in accordance with grant terms(PSN response) Philadelphia Safety Nel.!:!!!!£!!!!..with this
recommendation and is currently seekins the information and should have the information within
three weeks.

10. Remedy $34,003 in questionable unreasonable costs for rent and utilities on an underutilized
building. (PSN response) Philadelphia Safety Net disagrees with this recommendation. The
Philadelphia Senior Safety Center site was used for monthly training purposes, workshop delivery and
as a staging area or events and projects. The planning of these activities occurred, on average, three
days a week. Enclosed are materials and copies of workshop questionnaires.

11. Remed y $53,915 in unallowabl e consultant expenditures. (PSN response) Philadelphia Safety Net
disagrees with this recommendation. The consultant provided accounting services to PSN prior to any
federal grant awards. The consultant provided advise on the formation of the organization and filed
imd was awarded the not for profit status from Internal Revenue Service (see enclosed information/e­
mailed attachments).

The accounting system was established prior to any federal grant award. The organization is small
and unable to achieve optimum segregation of duties. To meet this objective the accounting
operations were main'l3ined by the outside consultint.

The Accounting System and Financial Capability Questionnaire responses are based on the accounting
system established for PSN. (See Attached- Schedule A)

The services provided:

    1. Bookkeeping Services:
            •   Check Disbursement
            •   Daily/Monthly Recording ofTransactions
    2. AccountingServices
            •   Daily/Monthly Review of Bank TranSilctions
            •   Monthly Bank Reconciliations
            •   Daily/Monthly Advice on use of Funds (Se e Example Attached- Schedule B)
            •   Monthly Financial Statements
            •   Monthly Budget to Actual Analysis (See Schedule Attached - Schedule C and D)
            •   Communicating on behalf ofPSN to all funding agency related to grants
            •   Provide Financial Statements for the entity and program audit
            •   Prepolration of the Not For Profit Tall. Return




                                                - 35 ­
The consultlnt's fee thilt WilS charged of 6% is oonsidered iI reilsonilble fee bilsed on the
services provided per outlined above.




                                        - 36 ­
                                                                                                     APPENDIX IV


            OFFICE OF JUSTICE PROGRAMS

        RESPONSE TO THE DRAFT AUDIT REPORT


                                                             U.S. Department of Jnstice

                                                             Office oj Justice Programs

                                                            Office of Audit, Assessmem, ond Managemem



     me -9
      :.      2013


MEMORANDUM TO:                       Thomas O. Puerzcr
                                     Regional Audit Manager
                                     Philadelphia Regional Audit Office
                                     Office of the Inspector General

FROM:                                M,ure,n A.     H,nn,,,,~,_.p/iS
                                                            ,
                                     DIrector                             '::::'J
SUBJECT:                             Response to the Draft udit Report, Audit 0/ the Office 0/Justice
                                     Programs, Edward Byrne Memorial Justice Assistance Grants
                                     Awarded 10 Philadelphia Safety Net, Phi/adelphia, Pennsylvania

This memorandum is in reference to your correspondence, dated November 8, 2013, transmitting
the above-referenced draft audit report for Philadelphia Safety Net (PSN). We consider the
subject report resolved and request written acceptance of this action from your office.

The draft report contains J J recommendations and $480,306 1 in net questioned costs. The
following is the Office of Justice Programs' (OJP) analysis of the draft audit report
recommendations. For ease of review, the recommendations are resllited in bold and arc
followed by our response.

1.         We r ecommend that OJP ensure that PSN establ ishes and adheres to internal
           control practices that: (a) preve nt the appearance of impropriety by avoiding
           potential or apparent conflicts of interests on its Board of Directors, (b) provide
           oversight of tbe Executive Director by its Board of Directors, (c) maintain
           supporting documentation for all expenditures, (d) dctect and prevent the use of
           gr.lnt funds for personal purposes in a timely manner, (e) ensure accountable
           property is properly safeguarded, (f) ensure payments to consultants conform with
           O.JP requirements, (g) ensure requests for grant funding are based on immediate
           cash needs in order to avoid excess casb on hand, (h) avoid potentially wasteful
           spending using cost benefit analyses for significant expenditures, and (i) ensure
           timely rcporting.

           QJP agrees with the recommendation. We will coordinate with PSN to obtain a
           copy of procedures implemented to ensure that PSN establishes and adheres to internal
           control practices that: (a) prevent the appearance of impropriety by avoiding potential or
           apparent conflicts of interests on its Board of Directors, (b) provide oversight of the

I   Some costs were questioned for more than one reason . Net questioned costs eXclude Ihe duplicate amouuts.




                                                      - 37 ­
     Executive Director by its Board of Directors, (c) maintain supporting documentation for
     all expenditures, (d) detect and prevent the use of grant funds for personal purposes in a
     timely manner, (e) ensure accountable property is properly safeguarded, (I) ensure
     payments to consultants conform with OJP requirements., (g) ensure requests for granl
     funding are based on immediate cash nuds in order 10 avoid excess cash on hand,
     (h) avoid potentially wasteful spending using cost benefit analyses for significant
     expenditures, and (i) ensure timely reporting.

2.   We recommend that OJP ensure that PSN establishes and adheres to policies and
     procedures to ensure that: (a) the Executive Director's COmlJensation is bascd on an
     analysis of his documented workload and performance, (b) the Executive Director is
     not paid in excess of his Board approved salary and fringe benefit levels, and
     (c) OJP grant funding is not used for the Exccutive Oircctor's fund raising activities.

     OJP agrees with the recommendation. We will coordinate with PSN to obtain II copy of
     procedures implemented to ensure that: (a) the Executive Director's compensation is
     based on IlJ1 analysis of his documented workload and performance, (b) the Executi ve
     Director is not paid in excess of his Board approved salary and fringe benefit levels, and
     (c) OJP grant funding is not used for thc Executive Director's fundraisi ng activities.

3.   We recommend that OJP remedy SI0l , I43 in questioned unallowable costs, which
     include the EXCi:utive Director's salary (S8I ,942) and aS50chtted fringe benefits
     (SI9)OI) paid with OJP grant funding, but were not ap proved by the PSN Board of
     Directon.

     OJP agrees wilh the recommendation. We wiil coordinate with PSN to remedy the
     S101,143 in questioned payroll costs charged 1 grant numbers 2009-0 1-BX-0272 and
                                                   0
     201()"DO-BX.047l.

4.   We recommend that OJP remedy $346,394 in questioned unreasonable costs, which
     include the Executh'e Director's salary (S276,780) and assodatcd fringe benefits
     (569,614) paid with OJP grant funding, but were neither approved by the PSN
     Hoard or Directors, nor based on the value of sef\lices rendered.

     OJP agrees with the recommendation. We will coordinate with PSN to remedy
     the $346,394 in questioned costs charged to grant numbers 2009-DI-I3X-0272 and
     2010-DD-BX-0471.

5_   We recommend that OJP remedy $346,394 in questioned unsupported costs, which
     include the Executive Direclor's salary (5276,780) and assodated fringe benefits
     (569,614) pllid with OJP gr.wt funding, but wert neither approved by the PSN
     Board of Direcion, nor adequately docum ented in accordance with the grant terms.

     OJP agrees with the recommendation. We will coordinate wilh PSN 1 remedy
                                                                        0
     the 5346,394 in unsupponed payroll costs charged to grant numbers 2009-01 -8 X-0272
     and 2010-DO-BX-0471.




                                           - 38 ­
6.     We recom mend that OJP remed y S45, 156 in questio ned unallowa ble costs, which
       represents the " OrtiOD o( the Executive Di rector's salary (S37,444) and associated
       (ringe benefits (S7,712) paid with OJP grant runding which PSN estimates was used
       (or rundraising activities.

       OJP agrees with the recommendation. We will coordinate with PSN to remedy the
       545, 156 in questioned payroll costs charged to grant numbers 2009-0 1-8X-0272 and
       2010·00-BX-047 1.

7.     We reco mmend that OJP remedy $8,300 in questioned unallowable costs (or gill
       ta rd expenditures that did not result in guns cnlleded by the Philadelphia Police
       Department.

       OlP agrees with the recommendation. We will coordinate with PSN to remedy the
       $8,300 in unallowable costs charged to grant number 20 I O-OO-BX-047 1.

8.     We re ~ ommend that OJP remedy 528,000 in questioned unsupported costs (or gift
       ca rd expenditures that did not result in gu ns collected by the Philadell)hia Police
       Department.

       OlP agrees with the recommendation. We will coordinate with PSN to remedy the
       S28.000 in unsuppooed costs charged to granl number 20 10-00-BX-0471.

9.     We recommend that OJP rcmedy $13,947 in ques tioned unsupported costs ror
       utility expenditures which were no t adequately docunlentcd In acco rdance with
       gnmt te rms.

       OlP agrees with the recommendation. We will coordinatc with PSN to remedy the
       $13 ,947 in unsupponed utility costs charged to grant numbers 2009-0I-BX-0272 and
       2010-DO-BX-0471.

10.     We recommend that OJP remedy $34,003 in (Iuestioned unreaso nable costs (or rent
        and utilities on an underutilized building.

       OlP agrees with the recommendation. We will coordinate with PSN to remedy the
       $34,003 in questioned rent cost~ charged 10 grant number 201 O-OD-BX-0471.

 11.    We recommend that OJP remedy $53,9 15 in unullowilble con~ ult ant expenditures.

        OJP agrees with the recommendation. We will coordinate with PSN to remedy the
        553,915 in qucstioned consulting costs charged to grant numbers 2009-DI-8X-0272
        and 2010-0D-BX--D471.

 We appreciate the opportunity to review and comment on the draft audit rcport. If you have any
 questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
 Audit and Review Division. on (202) 616-2936.




                                            - 39 ­
cc:   Jeffcry A. Haley
      Deputy Director, Audit and Review Division
      Office of Audit, Assessment, and Management

      Denise O'DoMcll
      Director
      Bureau of Justice Assistance

      Tracey Trautman
      Deputy Director for Programs
      Bureau of Justice Assistance

      EileenGany
      Deputy Director
      Bureau of Justice Assistance

      James Simonson
      Budget Director
      Bureau of Justice Assistance

      Amanda loCicero
      Budget Analyst
      Bu~au of Justice Assistance


      Gale F'arquhar
      Grant Program Specialist
      Bureau of Justice Assistance

      Richard P. Theis
      Assistant Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      OlP Executive Secretariat
      Control Number 20 13-1798




                                          - 40 ­
                                                             APPENDIX V


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to Philadelphia Safety Net
(PSN) and the Office of Justice Programs (OJP) for review and comment.
PSN’s response is included as Appendix III, and OJP’s response is included
as Appendix IV of this final report. Because OJP agreed with all of our
recommendations and discussed the specific actions that will be taken to
address each of our findings, we consider all of the recommendations
resolved. PSN did not agree with all of our recommendations, therefore we
address PSN’s position in our analysis of each recommendation below. The
following provides the OIG analysis of the responses and summary of actions
necessary to close the report.

Recommendation Number

1. Resolved.	 OJP agreed with our recommendation to ensure that PSN
   establishes and adheres to internal control practices that: (a) prevent
   the appearance of impropriety by avoiding potential or apparent conflicts
   of interests on its Board of Directors, (b) provide oversight of the
   Executive Director by its Board of Directors, (c) maintain supporting
   documentation for all expenditures, (d) detect and prevent the use of
   grant funds for personal purposes in a timely manner, (e) ensure
   accountable property is properly safeguarded, (f) ensure payments to
   consultants conform with OJP requirements, (g) ensure requests for grant
   funding are based on immediate cash needs in order to avoid excess cash
   on hand, (h) avoid potentially wasteful spending using cost benefit
   analyses for significant expenditures, and (i) ensure timely reporting.

   In its response, PSN concurred with all of the sub-parts of the
   recommendation with the exception of 1(f), which recommends that OJP
   ensure payments to consultants comply with OJP requirements. PSN
   stated that “(t)he accounting professionals were ‘consultants’ of
   Philadelphia Safety Net before PSN received the DOJ grants. The
   consultant activity was then extended throughout the life of the federal
   grants.” Although PSN is correct that its consultants were hired under
   contract before these grants were awarded, PSN is still required to ensure
   any payments made with grant funding comply with OJP requirements.
   Because PSN did not adhere to OJP competition requirements for its grant
   payments to consultants, we maintain our recommendation.




                                    - 41 ­
  This recommendation can be closed when we receive documentation
  demonstrating that PSN has implemented procedures to enhance internal
  control practices in those specific areas noted in our report for this
  recommendation.

2. Resolved.	 OJP agreed with our recommendation that PSN establishes
   and adheres to policies and procedures to ensure that: (a) the Executive
   Director’s compensation is based on an analysis of his documented
   workload and performance, (b) the Executive Director is not paid in
   excess of his Board approved salary and fringe benefit levels, and (c) OJP
   grant funding is not used for the Executive Director’s fundraising
   activities.

  In its response, PSN concurred with 2(c) but disagreed with 2(a) and
  2(b). With regard to 2(a), PSN responded that the Executive Director’s
  salary was commensurate to that of an executive with similar experience
  and responsibility in the corporate world. As described in the audit
  report, the Executive Director’s activities were not well documented and
  there was no oversight of his performance. As a result, we could not
  determine the Executive Director’s workload or performance.

  With regard to 2(b), PSN responded that “… although there was not
  written approval, the Executive Director justified the increase in part
  because of the understanding the budget could be changed, as long as
  the change did not exceed 10% of the budget (The OJP rules stipulate
  that the grantee did not need “approval” to change the budget as long as
  the budget did not exceed 10% of the budget. It was the understanding
  of the Executive Director that changes also included salary).” The PSN
  response refers to OJP requirements for managing grant budget
  categories, which states “Movement of dollars between approved budget
  categories without a [Grant Adjustment Notice] is allowable up to ten
  percent of the total award amount (the ten percent rule), provided there
  is no change in project scope.” However, compliance with grant budget
  category rules does not allow for the Executive Director to adjust his own
  compensation without approval from the PSN Board of Directors.

  This recommendation can be closed when we receive documentation
  demonstrating that PSN has implemented policies and procedures to
  enhance internal control practices in those specific areas noted in our
  report for this recommendation.

3. Resolved.	 OJP agreed with our recommendation that it remedy
   $101,143 in questioned unallowable costs, including the Executive
   Director’s salary ($81,942) and associated fringe benefits ($19,201) paid


                                   - 42 ­
  with OJP grant funding that were not approved by the PSN Board of

  Directors.


  In PSN’s response disagreeing with this recommendation, PSN said that
  “Under the contract and execution of both grants, the executive director
  duties were as follows: (1) Project Manager, responsible for locations,
  logistics and follow-up of events, (2) Public Relations Director, responsible
  for writing public service announcements, scheduling meetings with the
  press and developing contents for flyers and postcards, (3) Grant
  Manager, responsible for sending reports to the Department of Justice
  and following the process of executing the grants, (4) Office Manager,
  processing the day-to-day operational functions for PSN including paying
  bills and managing two offices, and (5) Outreach Coordinator, responsible
  for scheduling Training for the Philadelphia Safety Net community
  outreach project in the Mt. Airy section of Philadelphia.”

  While PSN’s response provided the Executive Director’s duties, it did not
  address the issue that the Executive Director increased his compensation
  above the level approved by PSN’s Board of Directors. The unallowable
  costs here reflect the amount over and above the approved compensation
  for the Executive Director.

  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied the $101,143 in unallowable costs.

4. Resolved.	 OJP agreed with our recommendation to remedy $346,394 in
   questioned unreasonable costs, which include the Executive Director’s
   salary ($276,780) and associated fringe benefits ($69,614) paid with OJP
   grant funding, but were neither approved by the PSN Board of Directors,
   nor based on the value of services rendered.

  In PSN’s response disagreeing with this recommendation, PSN provided
  the same abbreviated job description for the Executive Director that it
  provided for recommendation number 3. This response fails to
  demonstrate the Executive Director’s compensation paid using grant
  funding totaling $346,394 was reasonable when compared to the
  Executive Director’s activities as described in the audit report.

  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied the $346,394 in unreasonable
  costs.

5. Resolved. OJP agreed with our recommendation to remedy $346,394 in
   questioned unsupported costs, which include the Executive Director’s


                                    - 43 ­
  salary ($276,780) and associated fringe benefits ($69,614) paid with OJP
  grant funding, but were neither approved by the PSN Board of Directors,
  nor adequately documented in accordance with the grant terms.

  In PSN’s response disagreeing with this recommendation, PSN provided
  the same abbreviated job description for the Executive Director that it
  provided for recommendations number 3 and 4. This response fails to
  support the payments made to the Executive Director.

  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied the $346,394 in unsupported costs.

6. Resolved. OJP agreed with our recommendation to remedy $45,156 in
   questioned unallowable costs, which represents the portion of the
   Executive Director’s salary ($37,444) and associated fringe benefits
   ($7,712) paid with OJP grant funding which PSN estimates was used for
   fundraising activities.

  In its response, PSN disagreed with this the recommendation but did not
  provide a rational for its disagreement. However, PSN suggested that the
  audit report did not clearly establish how questioned costs were
  determined. We reviewed the draft report and determined that the
  description clearly identifies the calculation of total compensation related
  to fundraising activities as representing 10 percent of total salary and
  fringe benefits paid from all funding sources.

  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied the $45,156 in unallowable costs.

7. Resolved. OJP agreed with our recommendation to remedy the $8,300
   in questioned unallowable costs for gift card expenditures that did not
   result in guns collected by the Philadelphia Police Department.

  In its response, PSN disagreed with this recommendation stating that it
  still maintained gift cards in its possession although the grant has been
  closed out. PSN also provided a copy of an e-mail sent to OJP in
  September 2012 proposing to give the remaining 83 $100 gift cards it
  still held to groups or organizations yet to be identified. We have not
  been provided an update as to whether PSN received a response from
  OJP regarding the remaining gift cards. As these cards are still
  outstanding and were not utilized to meet grant-funded objectives, we
  maintain the $8,300 as unallowable costs.




                                   - 44 ­
  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied the $8,300 in unallowable costs.

8. Resolved. OJP agreed with our recommendation to remedy $28,000 in
   questioned unsupported costs for gift card expenditures that did not
   result in guns collected by the Philadelphia Police Department.

  In its response, PSN disagreed with this recommendation and said that it
  provided support for all purchases of gift cards and PSN still has cards in
  its possession. We agree with PSN’s response that it has provided
  support for the purchase of gift cards, including those still in its
  possession. However, this response fails to justify using $28,000 to
  purchase gift cards that did not result in guns collected for the program
  and the disposition of those cards.

  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied the $28,000 in unsupported costs.

9. Resolved. OJP agreed with our recommendation to remedy $13,947 in
   questioned unsupported costs for utility expenditures which were not
   adequately documented in accordance with grant terms.

  In its response, PSN agreed with this recommendation and said that it is
  seeking the missing documentation for the utility expenditures paid for
  with grant funds.

  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied $13,947 in unsupported costs.

10.Resolved. OJP agreed with our recommendation to remedy $34,003 in
  questioned unreasonable costs for rent and utilities on an underutilized
  building.

  In its response disagreeing with this recommendation, PSN said that
  “(t)he Philadelphia Senior Safety Center site was used for monthly
  training purposes, workshop delivery and as a staging area or events and
  projects. The planning of these activities occurred, on average, three
  days a week.” PSN also provided materials and copies of workshop
  questionnaires.

  We reviewed the materials submitted by PSN with its response and
  determined these did not support PSN’s claims that the site was used on
  average, three days a week. The materials, including attendance logs,



                                   - 45 ­
   demonstrate the site was used on 3 separate occasions at which a total of
   25 persons participated.

   This recommendation can be closed when we receive documentation
   demonstrating that OJP has remedied $34,003 in unreasonable costs.

11.Resolved. OJP agreed with our recommendation to remedy $52,792 in
  unallowable consultant expenditures. 21

   In its response, PSN disagreed with our recommendation and stated that
   the consultant’s fee, charged at six percent of the award budget, was
   considered a reasonable fee based on the services provided. In addition,
   PSN said that the consultant was necessary because “the organization is
   small and unable to achieve optimum segregation of duties”.

   PSN’s response did not provide support for its assertion that the
   consultant’s fee of six percent should be considered reasonable.
   Additionally, while we agree that it is a challenge for smaller
   organizations to establish effective controls that include segregation of
   duties, our report details that the Executive Director either ignored or
   overrode the controls provided by the consultant. Examples included the
   use of organization funding for personal use, salary increases without
   Board approval, and the failure to provide the consultant with utility bills
   and related documentation to support payments made with grant funds.

   This recommendation can be closed when we receive documentation
   demonstrating that OJP has remedied $52,792 in unallowable
   expenditures.




       21
         The draft audit report provided to OJP and PSN incorrectly identified the amount of
questioned costs related to Recommendation 11 as totaling $53,915. This final report has
been revised to identify the correct amount of $52,792.




                                           - 46 ­
